Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




   CONCERNS WITH REBATES
               IN THE
  MEDICARE PART D PROGRAM




                    Daniel R. Levinson
                     Inspector General

                       March 2011
                     OEI-02-08-00050
           E X E C U T I V E                              S U M M A R Y


                    OBJECTIVES
                    1. To determine the extent to which all Part D sponsors received
                       rebates in 2008.

                    2. To determine the extent to which all Part D sponsors passed rebates
                       on to beneficiaries.

                    3. To describe the nature of the rebates received by selected sponsors.

                    4. To describe the nature of selected sponsors’ contractual relationships
                       with pharmacy benefit managers (PBM).


                    BACKGROUND
                    Under the Medicare Part D program, private insurance companies,
                    known as sponsors, provide drug coverage to beneficiaries who choose to
                    enroll. These sponsors are responsible for reducing the cost of the
                    program by negotiating rebates from drug manufacturers. Drug
                    manufacturers provide rebates to increase drug sales.

                    Rebates can substantially reduce the cost of the Part D program;
                    however, sponsors must accurately report these rebates for the
                    Government and beneficiaries to receive any cost savings. Prior to this
                    review, little information was publicly available about the extent to
                    which sponsors receive rebates for Part D drugs and pass them on to the
                    Government and beneficiaries. Also, little was known about the nature
                    of rebates and the contractual relationships between sponsors and
                    PBMs, the third-party entities that often negotiate for rebates on behalf
                    of sponsors.

                    Before the beginning of each plan year, sponsors must provide the
                    Centers for Medicare & Medicaid Services (CMS) with bids that contain
                    information about the rebates they expect to receive. CMS uses these
                    bids to calculate beneficiary premiums. After the close of the plan year,
                    sponsors must provide CMS with information about the actual amount
                    of rebates they received. CMS uses this information to determine the
                    amount that the Government ultimately pays each sponsor for
                    providing the benefit. If sponsors receive rebates at the sponsor level,
                    rather than the plan level, CMS requires that sponsors allocate a
                    portion of these rebates to each of their plans. The methods sponsors
                    use can affect the amounts that the Government ultimately pays
                    sponsors for providing the benefit.



OEI-02-08-00050     C O N C E R N S W I T H R E B AT E S   IN THE   M E D I C A R E PA R T D P R O G R A M   i
E X E C U T I V E                       S U          M M A R Y


                   We based this study on a review of all Part D sponsors’ Direct and
                   Indirect Remuneration Reports for Payment Reconciliation (hereinafter
                   referred to as rebate reports) for 2008, Prescription Drug Event data for
                   2008, all sponsors’ bids for 2008, contracts from six selected sponsors,
                   and structured interviews with these six sponsors.


                   FINDINGS
                   Medicare Part D sponsors reported receiving $6.5 billion in drug
                   manufacturer rebates in 2008. On average, this equaled $275 per
                   beneficiary, or about $7 per drug dispensed in 2008. These rebates were
                   approximately 10 percent of total gross Part D drug costs, which were
                   $63 billion in 2008. Some sponsors reported large differences in rebates
                   across their plans. How sponsors allocate rebates across their plans may
                   affect the amount that the Government ultimately pays sponsors for
                   providing the benefit.
                   Sponsors commonly underestimated rebates in their bids, which led
                   to higher beneficiary premiums. Sponsors underestimated rebates in
                   69 percent of their bids for plan year 2008. When sponsors
                   underestimate rebates in their bids, beneficiary premiums are higher
                   than they otherwise would be and both the Government and
                   beneficiaries overpay for the benefit. Although the Government recoups
                   some of the overpayments, beneficiaries do not.
                   Selected sponsors received rebates when they encouraged
                   beneficiaries to use certain drugs. The six sponsors we reviewed
                   received two distinct types of rebates: formulary rebates and market-
                   share rebates. Formulary rebates were provided when sponsors’
                   formularies encouraged beneficiaries to use certain drugs over others,
                   whereas market-share rebates were based on the total number of the
                   rebated drugs that beneficiaries used compared to the total number of
                   other drugs used.
                   Selected sponsors had complex contractual relationships with PBMs
                   that sometimes lacked transparency. CMS holds sponsors ultimately
                   responsible for accurately reporting rebates and for ensuring that their
                   PBMs comply with CMS requirements. The lack of transparency raises
                   concerns that sponsors may not always have enough information to
                   oversee the services and information provided by PBMs. In addition, the
                   selected sponsors reported that their PBMs collected fees from drug
                   manufacturers that were not always passed on to the Part D program.



 OEI-02-08-00050   C O N C E R N S W I T H R E B AT E S   IN THE   M E D I C A R E PA R T D P R O G R A M   ii
E X E C U T I V E                       S U          M M A R Y



                   RECOMMENDATIONS
                   Because of the size of these rebates, it is vital that rebates be reported
                   accurately and that the Government and beneficiaries receive the full
                   benefit of these rebates. Our review identified several concerns about
                   these rebates. Based on these findings, we recommend that CMS:
                   Take steps to ensure that sponsors more accurately include their
                   expected rebates in their bids. After the close of each plan year, CMS
                   should compare the actual rebates that sponsors reported to the rebates
                   in sponsors’ bids. CMS should work with the sponsors that have
                   particularly large differences to ensure that these differences do not
                   occur in the future. CMS should also consider targeting these sponsors
                   in its financial audits.
                   Require sponsors to use methods CMS deems reasonable to
                   allocate rebates across plans. The method sponsors use to allocate
                   rebates across plans may affect the amount that the Government pays for
                   the Part D program. In its guidance for reporting 2009 rebates, CMS
                   provides a list of allocation methods it considers reasonable, such as
                   allocating rebates based on drug utilization or spending. CMS should
                   require sponsors to either use one of the methods it determines to be
                   reasonable or submit documentation proving that an alternative method
                   is reasonable.
                   Ensure that sponsors have sufficient audit rights and access to
                   rebate information. Sponsors are ultimately responsible for accurately
                   reporting their rebates to CMS. CMS should ensure that sponsors have
                   sufficient information to accurately report rebates. To do this, CMS
                   could require sponsors to have stronger provisions in their contracts
                   related to their audit rights and access to rebate information. CMS
                   could also provide more detailed guidance to sponsors about how they
                   should monitor PBM rebate information.
                   Ensure that sponsors appropriately report the fees that PBMs
                   collect from manufacturers. CMS should clarify when these fees should
                   be reported as rebates. In addition, beginning for plan year 2009, CMS
                   required sponsors to report all payments that meet the definition of “bona
                   fide service fees,” including those that the PBM retains and does not
                   share with the sponsor. CMS should use this information to monitor the
                   fees and ensure that they were reported appropriately.




 OEI-02-08-00050   C O N C E R N S W I T H R E B AT E S   IN THE   M E D I C A R E PA R T D P R O G R A M   iii
E X E C U T I V E                       S U          M M A R Y



                   AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                   RESPONSE
                   CMS concurred with one of our recommendations in the draft report and
                   partially concurred with another. CMS did not concur with the
                   remaining two recommendations.

                   CMS concurred with our first recommendation, to ensure that sponsors
                   more accurately include rebates in their bids. CMS stated that it will
                   consider adding to its bid review a comparison of the rebates sponsors
                   actually receive to the rebates they report in their bids.

                   CMS did not concur with our second recommendation, to require
                   sponsors to use certain methods to allocate rebates across plans. CMS
                   stated that it currently requires sponsors to use a reasonable allocation
                   methodology that reflects differences in utilization and spending.
                   However, our findings show that sponsors may be inappropriately
                   allocating rebates across plans. Because this may result in a loss to the
                   Government, we continue to recommend that CMS require sponsors to
                   use allocation methods it deems reasonable. In our final report, we
                   reworded the recommendation and added a sentence recommending
                   that if sponsors choose an alternative method, they must submit
                   documentation proving that it is reasonable.

                   CMS did not concur with our third recommendation, to require sponsors
                   to have sufficient audit rights and access to rebate information. It
                   stated that it believes the current regulatory framework strikes the
                   appropriate balance to encourage sponsors to negotiate sufficient
                   disclosure of information from their PBMs, while recognizing the PBMs’
                   view that certain information is highly confidential. We are aware of
                   the current regulatory framework and the importance of balancing the
                   interests of sponsors and PBMs. However, this report shows that some
                   Part D sponsors have limited rights to audit their PBMs and limited
                   access to information about their rebates. In response to CMS’s
                   comments, we modified our recommendation and offered two ways for
                   CMS to ensure that sponsors have sufficient audit rights and access to
                   rebate information.

                   CMS partially concurred with our fourth recommendation, to ensure
                   that sponsors appropriately report the fees that PBMs collect from
                   manufacturers. CMS noted that it does not concur that more specificity
                   is required in the definition of “bona fide service fees.” However, this
                   report shows that sponsors are reporting these fees differently. While


 OEI-02-08-00050   C O N C E R N S W I T H R E B AT E S   IN THE   M E D I C A R E PA R T D P R O G R A M   iv
E X E C U T I V E                       S U          M M A R Y


                   CMS may not need to change the definition of “bona fide service fees,” it
                   may need to provide additional guidance or clarification about when
                   sponsors need to report these fees as rebates.




 OEI-02-08-00050   C O N C E R N S W I T H R E B AT E S   IN THE   M E D I C A R E PA R T D P R O G R A M   v
           T A B L E             O F                 C O N T E N T S



                  EXECUTIVE SUMMARY .....................................i



                  INTRODUCTION ........................................... 1



                  F I N D I N G S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
                             Medicare Part D sponsors reported receiving $6.5 billion in
                             drug manufacturer rebates in 2008 . . . . . . . . . . . . . . . . . . . . . . . . 10

                             Sponsors commonly underestimated rebates in their bids,
                             which led to higher beneficiary premiums . . . . . . . . . . . . . . . . . . . 12

                             Selected sponsors received rebates when they encouraged
                             beneficiaries to use certain drugs. . . . . . . . . . . . . . . . . . . . . . . . . . 14

                             Selected sponsors had complex contractual relationships with
                             PBMs that sometimes lacked transparency. . . . . . . . . . . . . . . . . . 17



                  R E C O M M E N D A T I O N S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20
                             Agency Comments and Office of Inspector General Response . . . 21



                  A P P E N D I X . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24
                             A: Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24




                  A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 28




OEI-02-08-00050         C O N C E R N S W I T H R E B AT E S   IN THE   M E D I C A R E PA R T D P R O G R A M
I N T R O D        U C T            I O N
    I N T R O D U C T I O N


                    OBJECTIVES
                    1. To determine the extent to which all Part D sponsors received
                       rebates in 2008.

                    2. To determine the extent to which all Part D sponsors passed rebates
                       on to beneficiaries.

                    3. To describe the nature of the rebates received by selected sponsors.

                    4. To describe the nature of selected sponsors’ contractual relationships
                       with pharmacy benefit managers (PBM).


                    BACKGROUND
                    The Medicare Part D program provides an optional prescription drug
                    benefit to Medicare beneficiaries. 1 Under the program, private
                    insurance companies, known as sponsors, provide drug coverage to
                    beneficiaries who choose to enroll. These sponsors are responsible for
                    reducing the cost of the program by negotiating rebates from drug
                    manufacturers. Drug manufacturers provide rebates to increase drug
                    sales.

                    Rebates can substantially reduce the cost of the Part D program;
                    however, sponsors must accurately report these rebates for the
                    Government and beneficiaries to receive any cost savings. Prior to this
                    review, little information was publicly available about the extent to
                    which sponsors receive rebates for Part D drugs and pass them on to the
                    Government and beneficiaries. Also, little was known about the nature
                    of rebates and the contractual relationships between sponsors and
                    PBMs, the third-party entities that often negotiate rebates on behalf of
                    sponsors. 2
                    The Medicare Part D Benefit
                    Under Medicare Part D, sponsors may offer stand-alone prescription
                    drug plans (PDP) or they may offer prescription drug coverage as part of
                    a Medicare Advantage Prescription Drug Plan (also known as an


                      1 The Medicare Prescription Drug, Improvement, and Modernization Act of 2003,
                    P.L. 108-173.
                      2 PBMs can provide a variety of services to sponsors to help manage their prescription
                    drug benefit. These services include processing prescription drug claims, contracting with
                    pharmacies, managing formularies, as well as negotiating rebates with drug manufacturers.
                    PBMs can be compensated for these services in a variety of ways, including receiving a fixed
                    payment per claim or retaining a percentage of sponsors’ rebates.



 OEI-02-08-00050    C O N C E R N S W I T H R E B AT E S   IN THE   M E D I C A R E PA R T D P R O G R A M    1
I N T R O D        U C T            I O N


                    MA-PD plan). Sponsors typically offer drug coverage under multiple
                    plans. These plans may differ in their benefit design, such as the
                    specific drugs they cover and the copayments they charge, or they may
                    differ in the geographic regions they cover.
                    Sponsors are required to offer, at a minimum, a basic prescription drug
                    benefit that is either the defined standard prescription drug benefit or is
                    “actuarially equivalent” to the standard benefit. 3 Most beneficiaries are
                    responsible for certain costs, which may include a monthly premium, an
                    annual deductible, and coinsurance or
                    copayments. However, certain low-income beneficiaries are eligible to
                    receive a subsidy that pays some or all of these costs. 4
                    For each of their plans, sponsors develop a list of covered drugs, known
                    as a formulary. A formulary often gives preference to certain drugs over
                    other drugs that treat the same condition. The drugs on each formulary
                    are organized into broad therapeutic categories and subsets called
                    pharmacologic classes. Each formulary must include at least two drugs
                    within each category or class. In addition, each formulary must include
                    “all or substantially all” drugs in six categories, which are often referred
                    to as protected classes. 5 Beginning in 2011, however, sponsors are
                    required to include on their formularies all drugs in categories and
                    classes that CMS identifies as being of clinical concern. 6 CMS is
                    currently determining how it will identify these categories and classes.

                    Sponsors can also use other methods to give preference to certain drugs
                    over others. These methods—called utilization management tools—
                    place restrictions on the use of certain drugs on their formularies. For
                    example, sponsors may require a beneficiary to seek prior authorization
                    before he or she is able to receive a certain drug. Sponsors may also


                       3 42 U.S.C. § 1395w-102 and 42 CFR §§ 423.104(d) and (e). “Actuarially equivalent”
                    means that the plan’s benefits must be of a dollar value equivalent to that of the standard
                    benefit.
                       4 42 CFR § 423.780 and 42 CFR § 423.782.
                       5 The six protected classes include the immunosuppressant, antidepressant,
                    antipsychotic, anticonvulsant, antiretroviral, and antineoplastic classes. See
                    42 CFR § 423.120(b)(2)(i); Centers for Medicare & Medicaid Services (CMS), Prescription
                    Drug Benefit Manual, ch. 6, § 30.2.5. Accessed at
                    http://www.cms.hhs.gov/PrescriptionDrugCovContra/downloads/R2PDBv2.pdf on
                    October 1, 2009.
                       6 The Patient Protection and Affordable Care Act requires that CMS establish criteria to
                    select the categories and classes of drugs it will consider as being of clinical concern. See
                    P.L. 111-148 § 3307 and 75 Fed. Reg. (Apr. 15, 2010), pp. 19766–19767.



 OEI-02-08-00050    C O N C E R N S W I T H R E B AT E S   IN THE   M E D I C A R E PA R T D P R O G R A M          2
I N T R O D        U C T            I O N


                    require a beneficiary to try a less expensive alternative before
                    progressing to a costlier drug.
                    Price Concessions and Drug Manufacturer Rebates
                    The Part D program relies on sponsors to negotiate drug manufacturer
                    rebates and other price concessions to reduce the cost of the program to
                    beneficiaries and the Government. Price concessions are payments that
                    decrease sponsors’ drug costs. 7 Rebates from drug manufacturers are
                    the most common type of price concessions. Other types of price
                    concessions include discounts, coupons, and other concessions that
                    reduce the cost of drugs. For example, if a sponsor received a payment
                    from a pharmacy because of a risk-sharing or prompt payment
                    agreement or a payment from a pharmaceutical manufacturer for a
                    legal settlement, the payment is considered a price concession. 8
                    Sponsors pass rebates and other types of price concessions on to
                    beneficiaries and the Government in several ways. Sponsors must
                    include expected rebates and other price concessions in their bids, which
                    lowers the premiums beneficiaries pay for drug coverage (as discussed
                    below). Sponsors may pass the cost savings derived from rebates
                    directly on to beneficiaries at the time they purchase drugs; these are
                    called point-of-sale rebates. 9 Additionally, sponsors pass rebates on to
                    the Government by reporting their actual rebates to CMS, which uses
                    them to adjust Part D payments in a process called payment
                    reconciliation. 10
                    Reporting of Drug Manufacturer Rebates to CMS
                    Before the beginning of the plan year, sponsors must provide CMS with
                    information about all rebates that they expect to receive as a part of
                    their bids. 11 These bids provide CMS with an estimate of the cost to
                    provide the benefit to each beneficiary. CMS uses bids to calculate
                    beneficiary premiums for each plan. Any anticipated rebates sponsors



                       7 42 CFR § 423.308.
                       8 CMS, Final Medicare  Part D DIR Reporting Requirements for 2008 Payment
                    Reconciliation, June 8, 2009, pp. 4, 6, and 7.
                       9 70 Fed. Reg. 4195, 4244 (Jan. 28, 2005).
                       10 42 CFR §§ 423.315 and 423.343.
                       11 Specifically, sponsors must include in their bids all price concessions that are not
                    passed on to the beneficiary at the point of sale. See CMS, Instructions for Completing the
                    Medicare Prescription Drug Plan Bid Pricing Tool for Contract Year 2008, April 2007,
                    p. 26.



 OEI-02-08-00050    C O N C E R N S W I T H R E B AT E S   IN THE   M E D I C A R E PA R T D P R O G R A M        3
I N T R O D        U C T            I O N


                    report to CMS in the bids reduce beneficiary premiums. 12 CMS also
                    uses the bids to calculate the monthly payments it makes to each
                    sponsor for providing the benefit. When sponsors underestimate
                    rebates in their bids, both the Government and beneficiaries overpay for
                    the benefit. The Government recoups some, but not all, of the
                    overpayments in a process known as reconciliation. Beneficiaries do not
                    recoup any of the money that they pay in higher premiums.

                    During reconciliation, CMS compares the monthly payments it makes to
                    the sponsor and the premiums charged to beneficiaries to the sponsor’s
                    costs. To do this, CMS requires sponsors to provide information about
                    the actual rebates they receive in reports known as Direct and Indirect
                    Remuneration (DIR) Reports for Payment Reconciliation (hereinafter
                    referred to as rebate reports). 13 The rebate amounts sponsors report
                    reduce the amounts the Government pays the sponsors for providing the
                    benefit. 14 Sponsors must submit one rebate report for each plan.
                    Sponsors must include all of the rebates and other price concessions
                    that they receive, as well as any rebates that the PBMs retained.15
                    Sponsors are not required to report administrative fees that PBMs
                    collect from manufacturers if the fees meet certain conditions. 16
                    If sponsors receive rebates at the sponsor level, rather than the plan
                    level, CMS requires that sponsors allocate a portion of these rebates to
                    each of their plans using a “reasonable” methodology. In its guidance
                    for reporting 2009 rebates, CMS provided examples of allocation
                    methodologies it considers reasonable, but it did not require sponsors to




                       12 42 U.S.C. § 1395w-113.
                       13 For example, see CMS, Final Medicare Part D DIR Reporting Requirements for 2008
                    Payment Reconciliation, June 8, 2009, p. 1. See also U.S.C. § 1395w-115(f)(1)(A).
                      14 For more information about payment reconciliation, see Office of Inspector General
                    (OIG), Medicare Part D Reconciliation Payments for 2006 and 2007 (OEI-02-08-00460),
                    September 2009.
                      15 If sponsors have not received all of their rebates at the time of reporting, they must
                    report estimates of the amounts they expect to receive. See CMS, Final Medicare Part D
                    DIR Reporting Requirements for 2008 Payment Reconciliation, June 8, 2009, p. 11.
                       16 According to CMS guidance, sponsors are not required to report administrative fees
                    that PBMs collect and retain if the fees are for bona fide services and are at fair market
                    value. See CMS, Final Medicare Part D DIR Reporting Requirements for 2008 Payment
                    Reconciliation, June 8, 2009, p. 7.



 OEI-02-08-00050    C O N C E R N S W I T H R E B AT E S   IN THE   M E D I C A R E PA R T D P R O G R A M        4
I N T R O D        U C T            I O N


                    use one of these methods. 17 The methods sponsors use are important
                    because they can affect the amounts that the Government ultimately
                    pays sponsors for providing the benefit. If a reasonable method is not
                    used, sponsors may allocate rebates strategically across plans to
                    increase the payments they receive from the Government.
                    Related Work
                    A 2010 OIG report found vulnerabilities in CMS’s controls to detect
                    inaccuracies in sponsors’ rebate reports. 18 Specifically, the report found
                    that CMS’s current controls to ensure the completeness and accuracy of
                    rebate reporting may not find all potential inaccuracies that need to be
                    followed up. It further noted that if rebates are understated and CMS’s
                    controls fail to detect the understatement, the sponsor could receive a
                    larger yearend payment from CMS than the amount to which it was
                    entitled. To address this, OIG recommended that CMS strengthen
                    controls to ensure completeness and accuracy of rebate data before
                    reconciliation.

                    A 2008 report by the Government Accountability Office (GAO) examined
                    how CMS ensures the reliability of the data in sponsors’ rebate
                    reports. 19 GAO found that CMS conducted some checks of the reported
                    price concessions data prior to reconciliation to identify outliers and
                    questionable data. GAO also found that CMS had begun fewer than
                    half of the required financial audits intended to evaluate the validity
                    and accuracy of the price concessions data. In addition, GAO found that
                    the variation in defining and reporting price concessions data may
                    create oversight challenges.




                       17 The 2009 guidance states, for example, that allocating rebates based on each plan’s use
                    of or total spending for each drug is reasonable. CMS, Final Medicare Part D DIR
                    Reporting Requirements for 2009 Payment Reconciliation, June 10, 2010, pp. 13–14. CMS
                    did not provide examples of reasonable allocation methods in its guidance for reporting 2008
                    rebates.
                      18 OIG, Medicare Part D – Prescription Drug Event Reconciliation Process
                    (A-18-08-30102), June 2010, pp. 3–4 and 13.
                      19 GAO, Medicare Part D Prescription Drug Coverage: Federal Oversight of Reported
                    Price Concessions Data, GAO-08-1074R, September 2008, p. 4.



 OEI-02-08-00050    C O N C E R N S W I T H R E B AT E S   IN THE   M E D I C A R E PA R T D P R O G R A M     5
I N T R O D        U C T            I O N




                    METHODOLOGY
                    This study focuses on the rebates received by PDPs and MA-PD plans
                    for the 2008 plan year. It is based on data from five sources:
                    (1) all Part D sponsors’ rebate reports for 2008, (2) Prescription Drug
                    Event (PDE) data for 2008, (3) all sponsors’ bids for 2008, (4) contracts
                    from six selected sponsors, and (5) structured interviews with these six
                    sponsors.
                    Review of Rebate Reports
                    To determine the extent to which all Part D sponsors received
                    manufacturer rebates, we reviewed the rebate reports that all sponsors
                    submitted to CMS for 2008. As mentioned earlier, these reports are
                    known as the DIR Reports for Payment Reconciliation. We downloaded
                    these reports from CMS’s Health Plan Management System. We
                    included all of the 2008 reports that sponsors submitted as of
                    September 1, 2009. 20
                    We analyzed these rebate reports to determine the total amount of
                    rebates that all sponsors reported receiving in 2008. We also
                    determined the amount of these rebates that were retained by PBMs as
                    part of their compensation from sponsors and the total amount of other
                    price concessions that sponsors reported receiving in 2008. We further
                    analyzed the reports to assess the percentage of sponsors that provided
                    rebates to beneficiaries at the point of sale.

                    To compare the rebates across sponsors, we calculated the per
                    beneficiary per month amount of rebates that each sponsor received. To
                    accomplish this, we obtained from CMS’s Health Plan Management
                    System the number of beneficiaries enrolled in each plan for each month
                    in 2008. 21 We used this information to calculate each beneficiary’s total
                    enrollment months and aggregated these data for all plans offered by
                    each sponsor. 22 We then divided each sponsor’s total rebates by its total
                    enrollment months. We also compared the average per beneficiary per
                    month rebate amount for sponsors with high, medium, and low


                      20 We excluded Employer Group Waiver Plans from our analysis. CMS pays sponsors for
                    these plans differently, and as a result, the rebates sponsors receive are not shared with the
                    Government and with beneficiaries in the same manner as described in this report.
                       21 CMS Health Plan Management System, Enrollment Report by Plan, 2008.
                       22 For example, one beneficiary enrolled for the entire year represented 12 enrollment
                    months.



 OEI-02-08-00050    C O N C E R N S W I T H R E B AT E S   IN THE   M E D I C A R E PA R T D P R O G R A M       6
I N T R O D        U C T            I O N


                    enrollment. We considered sponsors with 500,000 or more beneficiaries
                    to have high enrollment, between 50,000 and 500,000 beneficiaries to
                    have medium enrollment, and 50,000 or less to have low enrollment.
                    Analysis of Prescription Drug Event Data
                    Sponsors must submit a PDE record for each drug dispensed under
                    Part D. We used the PDE data to determine total Part D gross drug
                    costs. 23 We determined these costs for all Part D drugs dispensed in
                    2008 based on three fields in the PDE data: ingredient cost, dispensing
                    fee, and sales tax. We then calculated the total amount of rebates
                    reported by sponsors as a percentage of total Part D gross drug costs.

                    We also used the PDE data to determine the total amount of rebates
                    sponsors provided to beneficiaries at the point of sale in 2008. Sponsors
                    must indicate whether they provided point-of-sale rebates in their
                    rebate reports; however, the actual dollar amounts of these rebates are
                    contained in the PDE data.
                    Review of Bids
                    We compared sponsors’ bids to their rebate reports for 2008. For each
                    plan, we compared the amount of rebates and other price concessions
                    included in the bid to the actual amount of rebates and other price
                    concessions reported in the rebate report on a per member per month
                    basis. 24 If a sponsor reported fewer rebates in its bids than it actually
                    received, then beneficiaries’ premiums were higher than they otherwise
                    would have been.
                    Review of Contracts
                    We selected a purposive sample of six Part D sponsors to review in more
                    depth. We selected these six sponsors based on the number of
                    beneficiaries enrolled in their plans and the PBMs they contracted with
                    to get a variety of sponsors and PBMs for our review. These six
                    sponsors represented more than 25 percent of all Part D beneficiaries in
                    2008.
                    For each of these 6 sponsors, we selected a purposive sample of
                    10 contracts that the sponsor or its PBM had with a drug manufacturer.
                    To select these contracts, we first requested a list from each sponsor of

                       23 Total gross drug costs are the total amount paid for Part D drugs before rebates are

                    taken into account.
                       24 We excluded the 16 plans that provided rebates to beneficiaries at the point of sale
                    because CMS instructed sponsors to report these rebates in their bids differently from other
                    rebates.



 OEI-02-08-00050    C O N C E R N S W I T H R E B AT E S   IN THE   M E D I C A R E PA R T D P R O G R A M       7
I N T R O D        U C T            I O N


                    all of the contracts it or its PBM had with drug manufacturers for
                    rebates in 2008. In total, the 6 sponsors or their PBMs had
                    531 contracts with manufacturers. From these lists, we selected
                    10 contracts from each sponsor based on the manufacturer and the total
                    dollar amount of rebates associated with the contract. We reviewed
                    these contracts to determine the types of rebates sponsors received from
                    manufacturers and the specific terms and conditions of the rebates.

                    We also requested and reviewed all of the contracts that the six
                    sponsors had with PBMs in 2008. In total, the six sponsors held
                    nine contracts with PBMs. We reviewed these contracts to determine
                    the nature of the contractual relationships between the sponsors and
                    their PBMs.
                    Structured Interviews
                    We conducted structured in-person and telephone interviews with
                    officials from each of the six sponsors to gain a better understanding of
                    their rebates and contractual relationships with PBMs. If the sponsor
                    contracted with a PBM to negotiate rebates, we requested that
                    representatives from the PBM also be included in the interview. In
                    some cases, the representatives from the PBMs requested that we speak
                    to them without the sponsors present because they considered the
                    information confidential.

                    Our questions to sponsors focused on what types of rebates the sponsors
                    received, how they negotiated these rebates, and how they reported
                    rebates to CMS in their bids and rebate reports. We also asked how
                    they contracted with PBMs and how they ensured that the information
                    they received from their PBMs about rebates was accurate. For some
                    questions, such as how rebates were negotiated, the PBMs answered on
                    behalf of the sponsors. Our questions focused on the 2008 plan year.
                    We conducted these interviews between December 2008 and April 2009.
                    Limitations
                    We determined the amount of rebates that sponsors received for plan
                    year 2008 based on the rebate reports. The information in these reports
                    was provided by sponsors, and we did not independently verify these
                    data.

                    In addition, the information from the six sponsors that we reviewed in
                    greater depth is not generalizable to all sponsors. Lastly, because of the
                    proprietary nature of the data on rebates, this report presents general
                    information and does not include specifics about the rebate amounts
                    and rebate agreements.

 OEI-02-08-00050    C O N C E R N S W I T H R E B AT E S   IN THE   M E D I C A R E PA R T D P R O G R A M   8
I N T R O D        U C T            I O N


                    Standards
                    This study was conducted in accordance with the Quality Standards for
                    Inspection and Evaluation issued by the Council of the Inspectors
                    General on Integrity and Efficiency.




 OEI-02-08-00050    C O N C E R N S W I T H R E B AT E S   IN THE   M E D I C A R E PA R T D P R O G R A M   9
    F I N D I N G S


                              Medicare Part D sponsors reported             For 2008, Part D sponsors reported
                                    receiving $6.5 billion in drug          receiving $6.5 billion in manufacturer
                                                                            rebates for Part D drugs. On average,
                                   manufacturer rebates in 2008
                                                                            this equaled $275 per beneficiary, or
                                         about $7 per drug dispensed in 2008. These rebates were approximately
                                         10 percent of total gross Part D drug costs, which were $63 billion in
                                         2008.25
                                         As shown in Chart 1, sponsors reported receiving varying amounts of
                                         rebates.26 Most commonly, sponsors reported receiving between
                                         $10 and $20 of rebates per beneficiary per month. The sponsor with the
                                         highest amount of rebates reported an average of $75 per beneficiary
                                         per month. Interestingly, 17 percent of sponsors reported receiving no
                                         rebates at all. These sponsors typically had plans with very low
                                         enrollment, representing less than 1 percent of all beneficiaries enrolled
                                         in Part D.



                                    Chart 1: Average Rebates per Beneficiary per Month Received by Sponsors, 2008


                              40%                                                                                           38%
     Percentage of Sponsors




                              30%                                                   27%


                              20%            17%                                                                                       17%
         N=258




                              10%


                               0%
                                    No Rebates Reported                         $10 or Less                   Between $10 and $20   $20 or More




     Source: OIG analysis of sponsors’ rebate reports, 2010.
     Note: Totals do not sum to 100 percent because of rounding.




                                            25 Total gross drug costs are the total amount paid for Part D drugs before rebates are
                                         taken into account.
                                            26 Sponsors reported to CMS the aggregate amount of rebates they received. To compare
                                         these amounts across sponsors, we calculated each sponsor’s average per beneficiary per
                                         month rebate amounts.



    OEI-02-08-00050                      C O N C E R N S W I T H R E B AT E S   IN THE   M E D I C A R E PA R T D P R O G R A M                   10
     F    I N D I N G                 S


                                    Sponsors with large numbers of enrolled beneficiaries typically reported
                                    receiving larger rebates per beneficiary per month than sponsors with
                                    fewer enrolled beneficiaries. As shown in Table 1, sponsors with high
                                    enrollment received an average rebate of almost $25 per beneficiary per
                                    month, whereas sponsors with low enrollment received an average
                                    rebate of about $11 per beneficiary per month.



Table 1: Rebates Received by Sponsors, 2008
                                                                                                                                   Average Rebates
Beneficiary Enrollment in Sponsors’ Plans                                      Number of                   Percentage of            per Beneficiary
                                                                                Sponsors                    Beneficiaries                per Month
High enrollment                                                                                    8                         72%               $25


Medium enrollment                                                                                27                          20%               $15


Low enrollment                                                                                 223                            8%               $11

Source: OIG analysis of sponsors’ rebate reports, 2010.




                                    Some sponsors reported large differences in rebates across their plans
                                    The way sponsors allocate rebates across plans is important because it
                                    can affect the amount that sponsors owe to or receive from the
                                    Government during reconciliation. CMS does not require sponsors to
                                    allocate rebates using any particular method.

                                    Specifically, 40 of the 258 sponsors reported receiving rebates that
                                    varied more than $25 per beneficiary per month across plans. 27 In fact,
                                    one sponsor reported rebates that were $6 per beneficiary per month in
                                    one of its plans and $172 per beneficiary per month in another of its
                                    plans. The difference across plans may be because of differences in the
                                    characteristics of the plans’ beneficiaries and their drug use. However,
                                    these differences may also indicate that sponsors are inappropriately
                                    allocating rebates across their plans to optimize reconciliation
                                    payments.




                                       27 The remaining sponsors had differences that were less than $25.




         OEI-02-08-00050            C O N C E R N S W I T H R E B AT E S   IN THE   M E D I C A R E PA R T D P R O G R A M                           11
F   I N D I N G        S


                      Sponsors reported that PBMs retained less than 1 percent of all rebates
                      PBMs may retain a portion of the rebates they negotiate as part of their
                      compensation from sponsors. Sponsors are required to report these
                      rebates in their rebate reports. In 2008, sponsors reported that PBMs
                      retained a total of $24 million, which is less than 1 percent of all
                      rebates. Overall, 39 percent of sponsors reported that their PBMs
                      retained a portion of the rebates for at least one of their plans. The
                      remaining 61 percent of sponsors reported that their PBMs did not
                      retain rebates.
                      Rebates accounted for 98 percent of all price concessions reported by
                      sponsors
                      Rebates accounted for almost all of the price concessions that sponsors
                      reported to CMS in 2008. The other types of price concessions
                      amounted to a net total of $142 million. About half ($70 million) of
                      these payments resulted from an arrangement in which a sponsor
                      shared the financial risk with another party involved in the
                      administration or delivery of the Part D benefit, such as a pharmacy.
                      The remaining payments came from other sources, such as discounts
                      from pharmacies for prompt reimbursement or legal settlements.

                                                               Most sponsors did not pass the
              Sponsors commonly underestimated
                                                               full amount of manufacturer
           rebates in their bids, which led to higher          rebates on to beneficiaries in
                               beneficiary premiums            2008. Sponsors pass rebates on
                      to beneficiaries in two ways. Sponsors must include an estimate in their
                      bids of the rebates they expect to receive for the plan year. These
                      estimates lower the premiums that beneficiaries pay for drug coverage.
                      Alternatively, sponsors can pass the rebates directly on to beneficiaries
                      at the point of sale.
                      Sponsors underestimated rebates in 69 percent of their bids, which led to
                      higher premiums for beneficiaries in these plans
                      Sponsors underestimated rebates in 69 percent of their bids for plan
                      year 2008. When sponsors underestimate rebates in their bids,
                      beneficiary premiums are higher than they otherwise would be. As a
                      result, both the Government and beneficiaries overpay for the benefit.
                      Although the Government recoups some of the overpayments during
                      payment reconciliation, beneficiaries do not recoup any of the money
                      that they paid in higher premiums.

                      As shown in Table 2, 78 percent of all Part D beneficiaries were enrolled
                      in plans that underestimated the amount of rebates they received. On

    OEI-02-08-00050   C O N C E R N S W I T H R E B AT E S   IN THE   M E D I C A R E PA R T D P R O G R A M   12
     F    I N D I N G                 S


                                    average, the sponsors received rebates of $7 per beneficiary per month
                                    more than the amounts in their bids. 28 These amounts ranged from less
                                    than $1 to $145 per beneficiary per month.


Table 2: Amount of Rebates Sponsors Underestimated in Their Part D Bids, 2008
                                                                                                                                   Percentage of
                                                                                                           Percentage of                  Part D
Underestimated Rebates per Beneficiary per Month
                                                                                                             Part D Bids            Beneficiaries
$10 and over                                                                                                                 15%             10%

$5 to less than $10                                                                                                          23%             25%

$1 to less than $5                                                                                                           26%             37%

Less than $1                                                                                                                 6%               7%

  Totals*                                                                                                                    69%             78%
Source: OIG analysis of sponsors’ 2008 bids and rebate reports, 2010.
*Sum of row percentages for each column do not equal totals because of rounding.


                                    In contrast, for 29 percent of bids, sponsors overestimated the rebates.
                                    In these cases, the beneficiary premiums were lower than they would
                                    have been. On average, the sponsors received rebates of $5 per
                                    beneficiary per month less than the amounts in their bids. These
                                    amounts ranged from less than $1 to $59 per beneficiary per month.
                                    About 2 percent of bids were accurate.

                                    The amounts of rebates included in bids may have been inaccurate
                                    because rebates are affected by many factors, such as beneficiary
                                    enrollment and drug utilization patterns. Because these factors are
                                    often difficult to predict, CMS officials noted that sponsors’ estimates of
                                    rebates in their bids are not expected to exactly match the rebates they
                                    ultimately receive. It is also possible, however, that some sponsors may
                                    deliberately underestimate their rebates to increase profits.
                                    Very few sponsors provided rebates at the point of sale
                                    Sponsors may pass rebates on to beneficiaries at the point of sale to
                                    reduce beneficiaries’ drug costs and copayments. Sponsors did not


                                       28 Although we cannot determine the exact amount by which this increased beneficiary
                                    premiums, the Government provides sponsors with a subsidy equal to approximately
                                    75 percent of the cost of the average bid. Beneficiaries cover the remaining portion of the
                                    average bid with their monthly premiums.



         OEI-02-08-00050            C O N C E R N S W I T H R E B AT E S   IN THE   M E D I C A R E PA R T D P R O G R A M                          13
  F   I N D I N G        S


                        commonly pass rebates on to beneficiaries at the point of sale in 2008.
                        Of the 258 sponsors, 4 offered a total of 16 plans that provided rebates
                        to beneficiaries at the point of sale. These rebates amounted to about
                        $8 million and fewer than 1 percent of all Part D beneficiaries were
                        enrolled in these plans.


        Selected sponsors received rebates when
                                                                Drug manufacturers provide
they encouraged beneficiaries to use certain drugs              rebates to encourage
                                                                beneficiaries to use certain
                        drugs over others. The six sponsors we reviewed received two distinct
                        types of rebates: formulary rebates and market-share rebates.
                        Formulary rebates were provided when sponsors’ formularies
                        encouraged beneficiaries to use certain drugs over others, whereas
                        market-share rebates were based on the total number of the rebated
                        drugs that beneficiaries used compared to the total number of other
                        drugs used.
                        In the contracts we reviewed, most of the rebates that the selected
                        sponsors received were based on a fixed percentage of wholesale
                        acquisition cost (WAC). 29 Sponsors received these rebates based on the
                        number of units of the rebated drug dispensed to beneficiaries enrolled
                        in their plans. Sponsors received these rebates even when beneficiaries
                        were responsible for the full cost of the drugs, such as when they were
                        in the coverage gap. 30 In addition, all of the rebates in these contracts
                        were for brand-name drugs.
                        All six selected sponsors received formulary rebates
                        All six sponsors received rebates when their formularies and benefit
                        designs encouraged beneficiaries to use certain drugs over others.
                        These types of rebates, commonly known as formulary, or base, rebates
                        required sponsors to include the rebated drugs on their formularies. In
                        the contracts we reviewed, these rebates ranged from 0.5 percent to
                        75 percent of WAC.
                        The six sponsors each received rebates based on the placement of the
                        rebated drugs on their formularies. The formularies generally had at

                           29 WAC is the manufacturer’s list price for the drug for wholesalers or direct purchasers

                        in the United States and does not include discounts, rebates, or other reductions in price.
                        42 U.S.C. § 1395w-3a(6)(B).
                          30 The coverage gap is the phase of the benefit between initial coverage and catastrophic
                        coverage when most beneficiaries must pay the full cost of the drugs.



      OEI-02-08-00050   C O N C E R N S W I T H R E B AT E S   IN THE   M E D I C A R E PA R T D P R O G R A M        14
F   I N D I N G        S


                      least three tiers: one for generic drugs, one for preferred brand-name
                      drugs, and one for nonpreferred brand-name drugs. Beneficiaries paid a
                      different copayment for drugs on each tier. For example, in one plan,
                      beneficiaries had a $5 copayment for generic drugs, a $25 copayment for
                      preferred brand-name drugs, and a $60 copayment for nonpreferred
                      brand-name drugs. All six sponsors received rebates for including the
                      drugs on the brand-name preferred tiers.

                      Sponsors also often received rebates when they discouraged the use of
                      competitors’ drugs. As one sponsor noted, “manufacturers pay more for
                      less competition.” For example, several rebate agreements specified
                      that a competitor’s drug must have a higher copayment than that of the
                      rebated drug. Other agreements required the sponsor to exclude a
                      competitor’s drugs from its formulary altogether. Rebates were often
                      larger when fewer competitors’ drugs were given preference on the
                      formulary. For example, one sponsor received a 35-percent rebate when
                      the drug was one of two preferred drugs in its class, but a 40-percent
                      rebate when the drug was the only preferred drug in its class on the
                      formulary.

                      The rebates were also dependent on other aspects of their benefit
                      design. As noted earlier, sponsors can institute utilization management
                      tools, such as requiring a beneficiary to seek prior authorization before
                      covering certain drugs. Sponsors often received rebates under the
                      condition that the rebated drug was not subject to any utilization
                      management tools.

                      Finally, five sponsors received higher formulary rebates for beneficiaries
                      eligible for the low-income subsidy than for other Part D beneficiaries.
                      For example, one sponsor received a 20-percent rebate for drugs
                      dispensed to low-income subsidy beneficiaries, compared to a 10-percent
                      rebate for the same drug dispensed to other Part D beneficiaries.
                      Manufacturers may have provided higher rebates for low-income
                      subsidy beneficiaries as an incentive to sponsors to move these
                      beneficiaries to the rebated drugs. It may be more difficult for sponsors
                      to move these beneficiaries because they are not subject to the same
                      cost-sharing requirements as other Part D beneficiaries and therefore
                      do not have the same incentives to select preferred drugs. For example,
                      in 2008, low-income subsidy beneficiaries paid, at most, a $5.60
                      copayment for brand-name drugs and a $2.25 copayment for generic
                      drugs. They did not have a copayment differential between preferred
                      and nonpreferred brand-name drugs.


    OEI-02-08-00050   C O N C E R N S W I T H R E B AT E S   IN THE   M E D I C A R E PA R T D P R O G R A M   15
F   I N D I N G        S


                      Five of the six selected sponsors also received market-share rebates
                      Sponsors received market-share rebates, which were based on the total
                      number of the rebated drugs that beneficiaries used compared to the
                      total number of other drugs used. Sponsors generally received these
                      rebates in addition to formulary rebates. In the contracts we reviewed,
                      market-share rebates ranged from 0.5 percent to 10 percent of WAC.

                      The specifics of how market-share rebates were calculated varied among
                      sponsors; however, market-share rebates were generally based on the
                      performance of sponsors or PBMs. This performance was determined by
                      comparing utilization of the rebated drugs to other measures, such as
                      national averages. For example, one sponsor received a market-share
                      rebate when the use of a rebated drug was 4 percent higher than the
                      national average for that drug.
                      Four of the selected sponsors report receiving minimal rebates for drugs in
                      the six protected classes
                      Sponsors are required to include on each plan’s formulary “all or
                      substantially all” of the drugs in six categories. These categories are
                      often referred to as the six protected classes and include
                      immunosuppressant, antidepressant, antipsychotic, anticonvulsant,
                      antiretroviral, and antineoplastic classes. Four of the six selected
                      sponsors raised concerns that they received either no or minimal
                      rebates for the drugs in these six classes. 31 For example, one sponsor
                      explained that there is little incentive for drug manufacturers to offer
                      rebates for these six classes of drugs because they do not need to
                      compete for formulary placement. That sponsor further stated that “If
                      [a rebate] is provided, it’s probably at a lower percentage than [the
                      rebate for the drugs] that had some competition.”

                      As mentioned earlier, for plan year 2011, CMS is responsible for
                      reassessing the drugs that sponsors will be required to include on their
                      formularies. Because sponsors report receiving fewer rebates for such
                      drugs, any changes CMS makes could affect the overall cost of the
                      Part D program.




                         31 The remaining two sponsors did not comment on this issue.




    OEI-02-08-00050   C O N C E R N S W I T H R E B AT E S   IN THE   M E D I C A R E PA R T D P R O G R A M   16
F   I N D I N G        S



    Selected sponsors had complex contractual               CMS holds sponsors ultimately
relationships with PBMs that sometimes lacked               responsible for accurately
                                                            reporting rebates and for ensuring
                                 transparency
                                                            that their PBMs comply with CMS
                      requirements. 32  The six selected sponsors commonly had complex
                      relationships with their PBMs, and in some cases, these relationships
                      lacked transparency. This lack of transparency raises concerns that
                      sponsors may not always have enough information to oversee the
                      services and information provided by PBMs.
                      Contractual relationships between selected sponsors and PBMs were varied
                      and complex
                      All of the six selected sponsors had contracts with at least one PBM to
                      negotiate with drug manufacturers for rebates for their plans. In these
                      cases, the PBMs, not the sponsors, entered into contracts with the
                      manufacturers and collected the rebates. In addition, all six sponsors
                      relied on their PBMs to provide the aggregate data on rebates and other
                      price concessions that sponsors are required to report to CMS.

                      Sponsors had a variety of complex contractual relationships with the
                      PBMs. Two sponsors contracted with more than one PBM. In addition,
                      some PBMs were owned by the same parent company as the sponsor.
                      Some PBMs were also sponsors themselves and offered their own Part D
                      plans. For example, one sponsor owned a PBM that served some of its
                      own Part D plans as well as other sponsors’ plans. This sponsor also
                      contracted with another PBM that had its own Part D plan.
                      There was limited transparency between the selected sponsors and their
                      PBMs related to rebates
                      Five sponsors had limited information about the rebate contracts and
                      the rebate amounts negotiated by their PBMs. One PBM reported that
                      it does not share the manufacturer rebate contracts with its sponsors
                      because they contain confidential information and there is a chance that
                      the sponsor may one day become a PBM itself. Another PBM
                      specifically stated that the sponsor would “not be permitted to copy or
                      retain” any portion of the contract. As a result of these practices, most



                         32 CMS’s Prescription Drug Benefit Manual states that sponsors are ultimately
                      responsible for complying with all statutory, regulatory, and other requirements. They
                      must also ensure that their subcontractors, including their PBMs, are in compliance with
                      all applicable laws, rules, and regulations with respect to any Part D delegated
                      responsibilities. CMS, Prescription Drug Benefit Manual, ch. 9, § 40.1.



    OEI-02-08-00050   C O N C E R N S W I T H R E B AT E S   IN THE   M E D I C A R E PA R T D P R O G R A M     17
F   I N D I N G        S


                      of the selected sponsors were unaware of all of the contract terms that
                      determine the rebates they receive from drug manufacturers.

                      Several of the sponsors also had limited information about the rebate
                      amounts they actually received for each drug. As one sponsor
                      explained, its PBM provided aggregate information for all the rebates
                      associated with each Part D plan, rather than by drug name. As a
                      result, this sponsor did not know the amount of rebates it received for
                      each drug.

                      Several sponsors and PBMs further noted that the PBM industry is
                      extremely competitive and, as a result, information about a PBM’s
                      business practices, including the rebate contracts and the negotiated
                      rebate amounts, is highly confidential. In fact, the PBMs in our study
                      were, in some cases, unwilling to discuss details about their business
                      practices in front of the sponsor.
                      Selected sponsors relied primarily on audits to verify the rebate amounts,
                      and these audits were sometimes limited
                      The selected sponsors relied primarily on audits to verify that they
                      received the appropriate amount of rebates and that the rebate data
                      they reported to CMS were accurate. 33 In some cases, the scope of what
                      the sponsor could audit was restricted. According to one sponsor’s
                      contract with its PBM, the sponsor could audit a limited number of its
                      rebate agreements for the two quarters immediately preceding the
                      audit. However, the contract also stated that the manufacturer had the
                      right to deny the sponsor access to rebate agreements requested for the
                      audit. Another PBM contract stated that the sponsor could review only
                      a sample of rebate agreements. A third sponsor’s contract with its PBM
                      stated that the sponsor had the right to audit only certain parts of the
                      rebate agreements. In addition, two sponsors were required to use a
                      third-party auditing firm to perform these audits.
                      Selected sponsors reported that their PBMs collected fees from drug
                      manufacturers that were not always passed on to the Part D program
                      Five of the six selected sponsors reported that their PBMs received fees
                      from drug manufacturers, in addition to the fees that sponsors paid
                      PBMs for negotiating rebates. 34 These fees were structured like rebates


                        33 Several sponsors also explained that they conducted a broad-level data analysis to
                      roughly check the amount of rebates that they should have received.
                         34 The sixth sponsor reported that its PBM did not receive these fees.




    OEI-02-08-00050   C O N C E R N S W I T H R E B AT E S   IN THE   M E D I C A R E PA R T D P R O G R A M    18
F   I N D I N G        S


                      in that they were generally based on a fixed percentage of WAC.
                      According to the contracts we reviewed, these fees were for services that
                      the PBM provided to the manufacturers, such as negotiating rebates,
                      calculating rebate amounts, and distributing rebates to sponsors.

                      The PBMs handled these fees somewhat differently. For example, two
                      of the PBMs considered these fees to be rebates and provided them to
                      the sponsors. As a result, these sponsors reported them to CMS and
                      passed them on to the Government, thereby reducing the overall cost of
                      the Part D program.

                      In the other three cases, the PBMs considered these fees to be for
                      services they provided to the manufacturers and therefore they did not
                      pass them on to the sponsors. As a result, the sponsors did not report
                      the fees to CMS and therefore they were not passed on to the program.
                      Specifically, the PBMs considered these fees to be bona fide service fees,
                      which CMS does not consider price concessions if they are at fair market
                      value. The contracts we reviewed between the sponsors and the PBMs
                      had only limited information about these fees. Because sponsors may
                      not always be able to verify whether these fees should be considered
                      rebates or bona fide service fees, they may be inaccurately reporting this
                      information to CMS.




    OEI-02-08-00050   C O N C E R N S W I T H R E B AT E S   IN THE   M E D I C A R E PA R T D P R O G R A M   19
    RR EE CC OO MM MM EE NN DD AA TT II OO NN SS


                      Our report found that drug manufacturer rebates totaled $6.5 billion in
                      2008, representing about 10 percent of Part D drug costs. Because of
                      the size of these rebates, it is vital that rebates be reported accurately
                      and that the Government and beneficiaries receive the full benefit of
                      these rebates.

                      We identified several concerns about these rebates. We found that some
                      sponsors reported large differences in rebates across their plans. We
                      further found that most beneficiaries did not receive the full benefit of
                      rebates. Notably, sponsors underestimated rebates in
                      69 percent of their bids, resulting in beneficiary premiums that were
                      higher than they otherwise would have been. We also found that
                      contractual relationships between selected sponsors and their PBMs
                      sometimes lacked transparency and that sponsors sometimes lacked the
                      ability to oversee the services and information provided by PBMs.
                      Finally, we found that some sponsors passed the fees that their PBMs
                      received from manufacturers on to the program, while others did not.

                      Based on these findings, we recommend that CMS:
                      Take steps to ensure that sponsors more accurately include their expected
                      rebates in their bids
                      Beneficiaries benefit from rebates that are included in the bids;
                      therefore, it is essential that sponsors report all of the rebates they
                      expect to receive. After the close of each plan year, CMS should
                      compare the actual rebates that sponsors reported to the rebates in
                      sponsors’ bids. CMS should work with the sponsors that have
                      particularly large differences to ensure that these differences do not
                      occur in the future. CMS should also consider targeting these sponsors
                      in its financial audits.
                      Require sponsors to use methods CMS deems reasonable to allocate
                      rebates across plans
                      The methods sponsors use to allocate rebates across plans may affect
                      the amount that the Government pays for the Part D program. In its
                      guidance for reporting 2009 rebates, CMS provides a list of allocation
                      methods it considers reasonable, such as allocating rebates based on
                      drug utilization or spending. CMS should make any necessary changes
                      to this list. It should require sponsors to either use one of the methods
                      it determines to be reasonable or submit documentation proving that an
                      alternative method is reasonable.

    OEI-02-08-00050   C O N C E R N S W I T H R E B AT E S   IN THE   M E D I C A R E PA R T D P R O G R A M   20
R   E C O        M M E N D A T                        I O N               S


                      Ensure that sponsors have sufficient audit rights and access to rebate
                      information
                      Sponsors are ultimately responsible for accurately reporting their
                      rebates to CMS. CMS should ensure that sponsors have sufficient
                      information to accurately report rebates. To do this, CMS could require
                      sponsors to have stronger provisions in their contracts related to their
                      audit rights and access to rebate information. CMS could also provide
                      more detailed guidance to sponsors about how they should monitor PBM
                      rebate information.
                      Ensure that sponsors appropriately report the fees that PBMs collect from
                      manufacturers
                      CMS should work with sponsors to gain a better understanding of the
                      circumstances under which some sponsors are reporting these fees as
                      rebates and others are not. CMS should clarify when these fees should
                      be reported as rebates. In addition, beginning for plan year 2009, CMS
                      required sponsors to report all payments that meet the definition of
                      “bona fide service fees,” including those that the PBM retains and does
                      not share with the sponsor. CMS should use this information to
                      monitor the fees and ensure that they were reported appropriately. It
                      should also use the information—and perhaps target certain sponsors to
                      audit—to assess whether these fees should actually be considered
                      rebates and therefore should be taken into account in reconciliation.


                      AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                      RESPONSE
                      CMS concurred with one of our recommendations in the draft report and
                      partially concurred with another. CMS did not concur with the
                      remaining two recommendations.

                      CMS concurred with our first recommendation, to ensure that sponsors
                      more accurately include rebates in their bids. CMS stated that it will
                      consider adding to its bid review a comparison of the rebates sponsors
                      actually receive and include in their rebate reports to the rebates they
                      include in their bids. CMS further stated that it is more effective to
                      review rebate data before the bids are approved than to audit the data
                      after bids have been approved, noting that this helps ensure that
                      beneficiaries and the Government receive the benefit of the rebates in
                      beneficiary premiums and the prospective Part D payments.

                      CMS did not concur with our second recommendation, to require
                      sponsors to use certain methods to allocate rebates across plans. CMS

    OEI-02-08-00050   C O N C E R N S W I T H R E B AT E S   IN THE   M E D I C A R E PA R T D P R O G R A M   21
R   E C O        M M E N D A T                        I O N               S


                      stated that it currently requires sponsors to use a reasonable allocation
                      methodology that reflects differences in utilization and spending. CMS
                      stated that sponsors should be allowed to use a methodology other than
                      those enumerated by CMS. It noted that it will continue to collect and
                      review information from sponsors regarding their methods for reporting
                      rebates across plans and will consider whether it is appropriate to
                      provide additional guidance.

                      Our findings show that sponsors may be inappropriately allocating
                      rebates across plans. Because this may result in a loss to the
                      Government, we continue to recommend that CMS require sponsors to
                      use allocation methods it deems reasonable. This would enable CMS to
                      better monitor how sponsors are reporting rebates and would thereby
                      enable CMS to better safeguard the Part D program. In response to
                      CMS’s comments, in our final report we reworded our recommendation
                      and added a sentence recommending that if sponsors choose an
                      alternative method, they must submit documentation proving that it is
                      reasonable. We believe that this would allow sponsors some flexibility
                      but at the same time enable CMS to ensure that the methods are in fact
                      reasonable.

                      CMS did not concur with our third recommendation, to require sponsors
                      to have sufficient audit rights and access to rebate information. CMS
                      stated that it has taken steps to promote transparency and to make
                      sponsors responsible for the accuracy of the rebate information they
                      report to CMS. It further noted that it believes the current regulatory
                      framework strikes the appropriate balance to encourage sponsors to
                      negotiate sufficient disclosure of information from their PBMs, while
                      recognizing the PBMs’ view that certain information is highly
                      confidential. In addition, CMS commented that it believes the
                      Government’s access to rebate information is more crucial to the
                      integrity of the Part D program and that it has already imposed
                      requirements on sponsors to address the Government’s need for
                      transparency.

                      We are aware of the current regulatory framework and the importance
                      of balancing the interests of sponsors and PBMs. However, this report
                      shows that some Part D sponsors have limited rights to audit their
                      PBMs and limited access to information about their rebates. Without
                      adequate information, sponsors cannot fulfill their responsibility to
                      ensure the accuracy of the rebate information they report to CMS. In
                      response to CMS’s comments, we modified our recommendation and


    OEI-02-08-00050   C O N C E R N S W I T H R E B AT E S   IN THE   M E D I C A R E PA R T D P R O G R A M   22
R   E C O        M M E N D A T                        I O N               S


                      offered two ways for CMS to ensure that sponsors have sufficient audit
                      rights and access to rebate information. Specifically, CMS could require
                      sponsors to have stronger provisions in their contracts related to their
                      audit rights and access to rebate information. CMS could also provide
                      more detailed guidance to sponsors about how they should monitor PBM
                      rebate information. Finally, while we agree with CMS that Government
                      access to rebate information is crucial to the integrity of the program,
                      we stress that sponsors’ having sufficient audit rights and access to
                      rebate information is also essential to safeguarding the program.

                      CMS partially concurred with our fourth recommendation, to ensure
                      that sponsors appropriately report the fees that PBMs collect from
                      manufacturers. CMS noted that it does not concur that more specificity
                      is required in the definition of “bona fide service fees.” However, CMS
                      stated that it plans to continue to collect information from sponsors
                      regarding the bona fide service fees received by their PBMs and that it
                      uses this information to ensure that fees are appropriately reported to
                      CMS. CMS stated that this information will also be used to provide
                      additional guidance to Part D sponsors regarding bona fide service fees
                      as appropriate. However, this report shows that sponsors are reporting
                      these fees differently. While CMS may not need to change the definition
                      of “bona fide service fees,” it may need to provide additional guidance or
                      clarification to sponsors about when sponsors need to report these fees
                      as rebates, which thereby reduce the amount the Government pays for
                      the program.

                      We also made technical corrections to the report based on CMS’s
                      comments. For the full text of CMS’s comments, see Appendix A.




    OEI-02-08-00050   C O N C E R N S W I T H R E B AT E S   IN THE   M E D I C A R E PA R T D P R O G R A M   23
 A    P      P E N D                I X            ~          A
           A P P E N D I X ~ A

Centers for Medicare & Medicaid Services Comments




                     (#/"""0<$-.,
                                      DEPAKlMENT          OF HEALTH.           HUMAN SERVICES                     Centers for Medicare


                                                                                                                  Administrator
                                                                                                                                         &   Medicaid Services




                                                                                                                  Washington, DC 20201




                                    DATE:              DEC 16 20W
                                    TO:              Daniel R. Levinson
                                                     Inspector General

                                    FROM:            Donald M. Berwick, MD
                                                     Administrator

                                    SUBJECT:         Office of Inspector General (OIG) Draft Report: Concerns with Rebates in the
                                                     Medicare Part D Program (OEI-02-08-00050)


                                    Thank you forthe opportunity to review and comment on this OIG draft report, which evaluates
                                    rebates in the .Medicare Part D Program. The objective ofthe study was to review the rebates
                                    received by part Dsponsors and reported to the Centers for Medicare & Medicaid Services
                                    (CMS) in order to determine the following:

                                          •   The extent to which all Part Dsponsors received rebates in 2008;
                                          •   The extent to which all Part D sponsors passed rebates on to beneficiaries;
                                          •   The nature of the rebates received by selected sponsors; and
                                          •   The nattrre of selected sponsors' contractual relationships with pharmacy benefit
                                              managers (PBMs).

                                    The OIG made several recommendations to .ensure that rebates are reported accurately such that
                                    the Government and beneficiaries receive the full benefit of these rebates. Currently, CMS
                                    conducts s~veral Eevi~Vls of the rebate and other price concessions data reported by Part D
                                    sponsors to ensure that these data are reported accurately to CMS. Specifically, CMS evaluates
                                    the rebates amounts projected in the Part D bids, conducts reasonableness reviews on the direct
                                    and indirect remuneration (DIR) data prior to inclusion in Part D payment reconciliation, and
                                    validates the DIR data during the Part D financial audits. However, given the impact of these
                                    data on the costs incurred by beneficiaries and the Government, CMS understands the OIG's
                                    concerns. We look forward to continuing to work with the OIG to strengthen the Medicare Part
                                    D Program. Below is CMS' response to the OIG's recommendations.

                                    OIG Recommendation

                                    CMS Should Take Steps to Ensure That Sponsors More Accurately Include Their Expected
                                    Rebates in Their Bids.




     O
     o EE1·02·
         I - 0 2 - 00 88·00050
                        -00050        C               WITH R
                                        O N C E R N S WITH
                                      CONCERNS               E B AT E S
                                                           REBATES               HE M
                                                                          IiNN TTHE   EDICARE P
                                                                                    MEDiCARE    ART D
                                                                                              PART  D P ROGRAM
                                                                                                      PROGRAM                                                24
A   P   P E N D       I X           ~           A




    OEI-02-08-00050   C O N C E R N S W I T H R E B AT E S   IN THE   M E D I C A R E PA R T D P R O G R A M   25
A   P   P E N D       I X           ~           A




    OEI-02-08-00050   C O N C E R N S W I T H R E B AT E S   IN THE   M E D I C A R E PA R T D P R O G R A M   26
A   P   P E N D       I X           ~           A




    OEI-02-08-00050   C O N C E R N S W I T H R E B AT E S   IN THE   M E D I C A R E PA R T D P R O G R A M   27
A   P   P E N D       I X           C
       A C K N O W L E D G M E N T S



                      This report was prepared under the direction of Jodi Nudelman,
                      Regional Inspector General for Evaluation and Inspections in the New
                      York regional office, and Meridith Seife, Deputy Regional Inspector
                      General.

                      Miriam Anderson served as the team leader for this study. Other
                      principal Office of Evaluation and Inspections staff from the New York
                      regional office who contributed to this report include Jenell Clarke,
                      Levita Lowe, and David Rudich; central office staff who contributed
                      include Kevin Farber and Rita Wurm.




    OEI-02-08-00050   C O N C E R N S W I T H R E B AT E S   IN THE   M E D I C A R E PA R T D P R O G R A M   28
                 Office of Inspector General
                                  http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
